IN THE SUPREME COURT OF THE UNITED STATES

TAPIA-FELIX, LEONARDO
Petitioner
vs.

No:

20-1182

ROBERT M. WILKINSON, ACTING ATTORNEY
GENERAL
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
March 23, 2021
cc:
ANDREW M. JACOBS
SNELL & WILMER LLP
ONE ARIZONA CENTER
400 EAST VAN BUREN STREET
SUITE 1900
PHOENIX, AZ 85004
ANNA M. ADAMS
SNELL & WILMER LLP
TABOR CENTER
1200 17TH STREET
SUITE 1900
DENVER, CO 80202

